Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REPLACEMENT SCHEDULES
 FOR MEDICARE CONTINUOUS
 POSITIVE AIRWAY PRESSURE
          SUPPLIES




                    Daniel R. Levinson
                     Inspector General

                       June 2013
                     OEI-07-12-00250
EXECUTIVE SUMMARY: REPLACEMENT SCHEDULES FOR MEDICARE
CONTINUOUS POSITIVE AIRWAY PRESSURE SUPPLIES
OEI-07-12-00250

WHY WE DID THIS STUDY

Since 2009, the Office of Inspector General has identified reducing waste in health care services as a
top management challenge for the Department of Health and Human Services (HHS). In 2012,
HHS’s Centers for Medicare & Medicaid Services (CMS) found that beneficiaries receiving
continuous positive airway pressure (CPAP) treatment for obstructive sleep apnea may have
received more supplies (e.g., masks, tubing) than medically necessary; however, the quantities did
not exceed the established replacement schedule. Providing more supplies than necessary may lead
to wasteful spending.

HOW WE DID THIS STUDY

We requested CPAP replacement supply schedules in effect as of January 1, 2012, from
50 fee-for-service State Medicaid programs and from 4 fee-for-service Federal Employees Health
Benefits (FEHB) plans. We compared the replacement schedules for 15 types of CPAP supplies
with Medicare’s schedules. Additionally, we collected recommended replacement schedules from
five sleep disorder clinicians and four manufacturers.

WHAT WE FOUND

For supplies for which State Medicaid programs specified frequency schedules, 39 percent of
frequencies were less than those under Medicare, and 51 percent equaled those under Medicare.
Only 10 percent of frequencies exceeded those under Medicare. Additionally, many State Medicaid
programs have either recently changed their schedules or have initiatives underway to do so. Two
FEHB plans had no specific replacement schedules; the plans determined coverage on the basis of
medical necessity. Sleep medicine clinicians emphasized the importance of proper mask fit, but
research suggested that once proper mask fit is established, replacement of masks is less frequent
than Medicare allows. Finally, manufacturers recommended specific replacement frequencies for
only a few types of supplies, but those recommendations were often to replace those supplies on an
as-needed basis and potentially less frequently than under Medicare’s replacement schedule.

WHAT WE RECOMMEND

We recommend that CMS review the CPAP supply replacement schedule and revise the national
coverage determination or request that the Durable Medical Equipment Medicare Administrative
Contractors revise their local coverage determinations as appropriate. CMS did not concur with our
recommendation. CMS stated that failure to consider noncompliance or the potential impact of
supplier fraud or abuse would bias the estimate of a clinically appropriate refill rate. Although our
report does not include this specific information, we continue to believe that our evidence is
sufficient to warrant the recommendation that CMS review the supply replacement schedule and
make revisions as appropriate.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................8 

           Medicare, other health insurers, sleep medicine clinicians, 

           and CPAP manufacturers differ widely on replacement

           frequencies for supplies ...................................................................8 

Conclusion and Recommendation .............................................................12 

           Agency Comments and Office of Inspector General Response.....13 

Appendixes ................................................................................................14 

           A: State Medicaid Program Replacement Schedules for 

           Continuous Positive Airway Pressure Supplies .............................14 

           B: Decreases in Medicare Expenditures for Masks If the 

           Replacement Schedule Were Changed ..........................................16 

           C: Agency Comments ...................................................................17 

Acknowledgments......................................................................................19 

                  OBJECTIVE
                  To determine the extent to which the replacement schedule for continuous
                  positive airway pressure (CPAP) supplies under Medicare’s fee-for-service
                  system differed from those of other health insurers and the
                  recommendations of clinicians and CPAP machine manufacturers.

                  BACKGROUND
                  Since 2009, the Office of Inspector General (OIG) has identified reducing
                  waste in health care services as a top management challenge for the
                  Department of Health and Human Services (HHS).1 In 2012, HHS’s
                  Centers for Medicare & Medicaid Services (CMS) found that beneficiaries
                  may have received more CPAP supplies than medically necessary;2
                  however, the quantities did not exceed the established replacement
                  schedule. Providing more supplies than necessary may lead to wasteful
                  spending.
                  The Medicare Prescription Drug, Improvement, and Modernization Act of
                  20033 required that Medicare replace the existing fee-schedule payment
                  methodology for selected durable medical equipment, prosthetics,
                  orthotics, and supplies (DMEPOS) with a competitive-bid process. The
                  purpose of competitive bidding was to improve the effectiveness of
                  Medicare’s method of establishing DMEPOS payment amounts.4
                  Although competitive bidding reduced the prices that Medicare paid for
                  selected DMEPOS in selected areas, it did not change the frequency at
                  which Medicare allows reimbursement for those items.
                  In April 2012, CMS released a report on competitive bidding for
                  DMEPOS, including CPAP supplies. As part of the review, CMS staff
                  telephoned beneficiaries who had claims for CPAP replacement supplies
                  prior to the inception of the competitive bidding program, but no claims
                  for supplies thereafter. The beneficiaries reported that they had more than
                  enough supplies on hand, often multiple months’ worth, and, therefore, did
                  not need to obtain additional supplies after the competitive bidding
                  program began. In its report, CMS concluded that this situation “suggests



                  1
                    OIG, Top Management and Performance Challenges. Accessed at https://oig.hhs.gov/

                  on October 18, 2012. 

                  2
                    CMS, Competitive Bidding Update—One Year Implementation Update, p. 5, 

                  April 17, 2012. Accessed at http://www.cms.gov/ on April 27, 2012. 

                  3
                    P.L. 108-173 § 302(b). 

                  4
                    CMS, Overview of the DMEPOS Competitive Bidding Program. Accessed at 

                  http://www.dmecompetitivebid.com on November 1, 2012.

Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)   1
                  that beneficiaries received replacement supplies before they became
                  medically necessary.”5
                  CPAP
                  Positive airway pressure, commonly administered by a CPAP machine, is
                  the most widely used method for treating obstructive sleep apnea (OSA).
                  Individuals diagnosed with OSA experience physical blockages or
                  obstructions in the airway during sleep, usually because the back of the
                  tongue collapses against the soft palate and the soft palate collapses
                  against the back of the throat. A CPAP machine works by gently blowing
                  pressurized air through a tube attached to a mask worn by the user. The
                  pressurized air keeps the user’s throat open and acts as a sort of splint
                  while the user sleeps.6
                  Studies of the effect of positive airway pressure therapy show that OSA
                  patients who consistently use their machines feel better and, as a result of
                  the reduction of episodes of apnea during sleep, encounter fewer
                  complications of the condition.7 However, the use of a CPAP machine is a
                  form of continuous therapy for OSA patients and not a cure for OSA.
                  Individuals will continue to use a CPAP machine indefinitely unless
                  another intervention (e.g., weight loss) addresses the OSA.8
                  Because of the continuous use, a variety of CPAP supplies—such as
                  masks, tubing, chinstraps, and filters—must occasionally be replaced, thus
                  incurring recurring expenses. For example, the mask material tends to
                  absorb oil from the skin and may become stiff, needing to be replaced. In
                  addition, some CPAP models have nonwashable air filters that require
                  periodic replacement.
                  Medicare Part B Coverage of CPAP Supplies
                  Medicare Part B covers durable medical equipment (DME) as well as
                  supplies and services that are essential to the effective use of the
                  equipment. Medicare initially covers the cost of a CPAP machine for up
                  to 12 weeks if the beneficiary’s OSA diagnosis is documented by a sleep




                  5
                    CMS, Competitive Bidding Update—One Year Implementation Update, p. 5,
                  April 17, 2012. Accessed at http://www.cms.gov/ on April 27, 2012. 

                  6
                    American Sleep Apnea Association, Positive Airway Pressure Therapy. Accessed at 

                  http://sleepapnea.org/ on April 30, 2012. 

                  7
                    Ibid. 

                  8
                    Nigel McArdle et. al., “Long-term Use of CPAP Therapy for Sleep Apnea/Hypopnea 

                  Syndrome.” American Journal of Respiratory and Critical Care Medicine, Vol. 159 

                  No. 4, pp. 1108–1114, April 1, 1999. Accessed at 

                  http://171.66.122.149/content/159/4/1108.abstract on March 12, 2012.


Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)       2
                  study.9 Medicare covers the CPAP machine after the initial 12-week
                  period for those beneficiaries diagnosed with OSA who benefit from
                  CPAP during the initial 12-week period.10
                  Through LCDs, each of the four DME MACs established identical CPAP
                  supply replacement schedules.11 For example, DME MACs will reimburse
                  a supplier for a CPAP mask (A7034) every 3 months and a nondisposable
                  filter (A7039) every 6 months. Medicare will not pay for items or services
                  that exceed this replacement schedule because they would not be
                  considered “reasonable and necessary.”12 Table 1 lists the Healthcare
                  Common Procedure Coding System (HCPCS) codes, correlating
                  descriptions of CPAP replacement supplies, and the DME MACs’
                  determination of the maximum number of reasonable and necessary
                  replacement of CPAP supplies.




                  9
                    CMS, “Continuous Positive Airway Pressure (CPAP) Therapy for Obstructive Sleep
                  Apnea (OSA),” Medicare National Coverage Determinations Manual, Pub. 100-03,
                  § 240.4. Accessed at http://www.cms.gov/ on March 12, 2012. Medicare also provides
                  limited coverage for CPAP machines for beneficiaries enrolled in certain clinical studies.
                  10
                     Ibid. CMS may establish national coverage determinations (NCD) for DMEPOS.
                  NCDs specify whether certain medical items, services, treatment procedures, or
                  technologies are eligible for Medicare payment. When an NCD does not exist or when
                  there is need for further definition, a local coverage determination (LCD) may be
                  established by a CMS contractor. Through LCDs, each of the four Durable Medical
                  Equipment Medicare Administrative Contractors (DME MAC) established minimum
                  utilization criteria that must be met to establish that beneficiaries are benefiting from
                  CPAP therapy. If the criteria are not met, continued coverage of a CPAP machine and
                  related supplies will be denied as not reasonable and necessary. (See LCD numbers
                  listed in footnote 11.)
                  11
                     The four DME MACs and their respective LCD numbers for CPAP replacement
                  supplies are CIGNA Government Services (L11518), National Government Services
                  (L27230), National Heritage Insurance Company (L11504), and Noridian Administrative
                  Services (L171).
                  12
                     Social Security Act (SSA), § 1862(a)(1)(A).

Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)         3
                  Table 1: DME MACs’ Determination of Reasonable and Necessary
                  Replacement of CPAP Supplies

                    HCPCS
                                                                               Description          Frequency
                    Code

                    A4604                                CPAP Tubing With Heating Element           1 per 3 months

                    A7027                                Combination Oral/Nasal CPAP Mask           1 per 3 months

                    A7028                    Replacement Oral Cushion for Oral/Nasal Mask            2 per 1 month

                    A7029         Replacement Nasal Pillows for Oral/Nasal Mask, One Pair            2 per 1 month

                    A7030                                                      Full Face Mask       1 per 3 months

                    A7031                                            Full Face Mask Interface        1 per 1 month

                    A7032                                   Cushion for Nasal Mask Interface         2 per 1 month

                    A7033                                                        Nasal Pillows       2 per 1 month

                    A7034                                                      Nasal Interface      1 per 3 months

                    A7035                                                            Headgear       1 per 6 months

                    A7036                                                            Chinstrap      1 per 6 months

                    A7037                                                               Tubing      1 per 3 months

                    A7038                                                     Disposable Filter      2 per 1 month

                    A7039                                                 Nondisposable Filter      1 per 6 months

                    A7046                                          Humidifier Water Chamber         1 per 6 months
                  Source: DME MAC LCDs: CIGNA Government Services (L11518) dated February 4, 2011; National
                  Government Services (L27230) dated October 1, 2011; National Heritage Insurance Company (L11504)
                  dated February 4, 2011; and Noridian Administrative Services (L171) dated October 1, 2011.



                  The LCDs were first issued in 1993. At that time, medical review staff at
                  DME claims payment contractors contacted CPAP manufacturers and
                  clinicians to ask questions about the length of time that supplies were
                  expected to last. Supply frequencies were established on the basis of these
                  contacts. With one exception (i.e., tubing), the replacement frequencies
                  have remained the same for the past 20 years.

                  Related Report
                  A 2012 study of Veterans Healthcare Administration (VHA) patients with
                  OSA receiving positive airway pressure therapy for more than 1 year
                  found that CPAP supply refill rates were much greater in adherent patients




Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)                    4
                  than in nonadherent patients.13 Researchers selected a study population of
                  patients receiving positive airway pressure therapy for more than 1 year
                  because replacement rates, particularly for masks, can be more frequent
                  during the first year of use. During the initial period of use, patients might
                  need to try several masks to find the proper fit.14 Researchers found that
                  the rates at which patients replaced supplies were a good predictor of
                  long-term adherence to positive airway pressure therapy.

                  METHODOLOGY
                  Scope
                  We limited our study to the replacement schedules in effect as of
                  January 1, 2012, for the 15 types of CPAP supplies listed on DME MAC
                  LCDs. To ensure equitable comparisons, we compared the supply
                  replacement schedules and methods for establishing those schedules only
                  to those of other fee-for-service health insurers. Of the 15 types of CPAP
                  supplies, masks (A7027, A7030, and A7034) have the highest per-unit fee
                  schedule reimbursement amounts under the Medicare fee schedule. The
                  2012 fee schedule amounts for the three types of CPAP masks ranged from
                  $108.90 to $209.57 depending on the type of mask and geographic
                  jurisdiction. In 2011, masks accounted for 48 percent of the total
                  expenditures for CPAP supplies. Therefore, we calculated the effects of
                  replacement schedule changes only for masks rather than for all 15 types
                  of CPAP supplies.
                  We did not determine the validity of the diagnoses that led to the initial
                  prescription for a CPAP machine, nor did we determine the medical
                  necessity of the CPAP machine for the patients. Our review covered the
                  replacement schedules and did not include the fee schedules or
                  reimbursement rates paid by health insurers.




                  13
                     Nimesh Patel, D.O.; Afshin Sam, M.D.; Alexandra Valentin, RRT; Stuart F. Quan,
                  M.D; and Sairam Parthasarathy, M.D. “Refill Rates of Accessories for Positive Airway
                  Pressure Therapy as a Surrogate Measure of Long-Term Adherence.” Journal of Clinical
                  Sleep Medicine, Vol. 8, No. 2, 2012, pp. 169–175. This study defined “adherence” using
                  a modified version of the compliance criteria set forth in the LCDs of the four DME
                  MACs. For three of the four DME MACs—CIGNA Government Services, National
                  Government Services, and Noridian Administrative Services—“adherence” is defined as
                  use of the machine for at least 4 hours per night on 70 percent of nights during a
                  consecutive 30-day period anytime during the first 3 months of use. For the remaining
                  DME MAC—National Heritage Insurance Company—“adherence” is defined as an
                  average of 4 hours of use per 24-hour period on or after 61 days of initiation of CPAP
                  therapy.
                  14
                     National Institutes of Health, National Heart, Lung, and Blood Institute. Accessed at
                  http://www.nhlbi.nih.gov on February 11, 2013.

Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)       5
                  Data Collection
                  We requested CPAP replacement supply schedules in effect as of
                  January 1, 2012, from 50 fee-for-service State Medicaid programs and
                  from 4 fee-for-service Federal Employees Health Benefits (FEHB) plans.15
                  These four FEHB plans provide coverage to 93 percent of fee-for-service
                  FEHB enrollees. We surveyed each of the State Medicaid programs and
                  the selected FEHB plans to ascertain how they formulated their supply
                  replacement schedules.
                  We also collected recommended replacement schedules from clinicians
                  and manufacturers. To obtain clinician recommendations, we contacted
                  the director of the National Center on Sleep Disorders Research in the
                  National Heart, Lung, and Blood Institute’s Division of Lung Diseases at
                  the National Institutes of Health. The director provided the contact
                  information for five sleep disorder clinicians who also conduct sleep apnea
                  research in academic settings. We conducted structured interviews with
                  these five clinicians to obtain their recommendations. Additionally, we
                  surveyed four manufacturers of CPAP machines to determine their
                  recommended replacement supply schedules.16
                  Data Analysis
                  Replacement Schedule Comparisons. Medicare, State Medicaid programs,
                  and FEHB plans state the frequencies of replacement supplies in varying
                  timeframes. For example, Medicare states the replacement frequency for
                  masks as 1 per 3 months and the replacement frequency for disposable
                  filters as 2 per 1 month. To perform equitable comparisons, we converted
                  all frequency schedules to annual frequencies (e.g., 4 masks per year,
                  24 disposable filters per year), although health insurers reimburse for
                  supplies according to the stated frequency.
                  Effects of Replacement Schedule Changes. To calculate the effects of
                  potential changes to replacement schedules on the Medicare program, we
                  used the population of Medicare claims from 2011 for three types of CPAP
                  masks: A7027, A7030, and A7034. To identify mask claims for
                  beneficiaries using machines for more than 1 year, we excluded masks for
                  beneficiaries who also had claims for positive airway pressure machines
                  (i.e., E0470, E0471, E0472, and E0601) during 2010 and 2011. Using this
                  approach enabled us to better identify the claims for masks that were

                  15
                     Staff from the Tennessee Medicaid program stated that 100 percent of recipients are
                  enrolled in managed care plans; therefore, Tennessee does not pay for CPAP supplies on
                  a fee-for-service basis. We did not include the Tennessee Medicaid program in our data
                  collection but included the District of Columbia, for a total of 50 State Medicaid
                  programs.
                  16
                     The four manufacturers are DeVilbiss Healthcare, Fisher & Paykel,
                  Philips/Respironics, and ResMed.

Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)      6
                     replacements versus claims for masks that beneficiaries received to ensure
                     proper fit. Table 2 shows the number of beneficiaries with claims for
                     masks in 2011 who did not have claims for machines during 2010 and
                     2011.
     Table 2: 2011 Mask Claims for Beneficiaries Using CPAP Machines for More Than
     1 Year

                                    A7027                               A7030                              A7034
       Number
       of Masks
                            Number of         Allowed          Number of           Allowed      Number of              Allowed
                          Beneficiaries        Dollars       Beneficiaries          Dollars   Beneficiaries             Dollars

       1                         3,074       $589,420              92,075       $15,478,300        179,456         $18,752,549

       2                           857       $328,486              41,072       $13,831,501          80,697        $16,881,285

       3                           354       $203,872              20,681       $10,464,637          38,331        $12,036,781

       4                           139       $106,620               8,510        $5,749,508          16,126         $6,765,351

       5                             1            $941                245         $207,358              340           $176,731

       6                           N/A                N/A              54          $55,258               58            $35,273

       7                           N/A                N/A              13          $15,220               26            $19,356

       8                           N/A                N/A               8          $10,915                 8             $6,806

       9                           N/A                N/A               1           $1,535                 3             $2,871

           Total                 4,425      $1,229,339            162,659       $45,814,232        315,045         $54,677,003
      Note: Although DME MAC LCDs have determined that one mask per 3 months is the maximum reasonable and necessary quantity,
      Medicare beneficiaries can appeal for the reimbursement of additional claims.
      Dollar amounts are rounded to the nearest $1.
      Source: Medicare National Claims History File, 2012.



                     Although Medicare allows up to four masks per year, the majority of
                     beneficiaries received only one or two. Not all beneficiaries replaced
                     supplies at the coverage policy’s maximum amount. It is expected that
                     beneficiaries whose clinical conditions do not require the maximum
                     quantities should receive only the quantities that they need. Medicare
                     does not pay for items or services which are not reasonable and necessary
                     for the diagnosis or treatment of illness or injury.17

                     Standards
                     This study was conducted in accordance with the Quality Standards for
                     Inspection and Evaluation issued by the Council of the Inspectors General
                     on Integrity and Efficiency.




                     17
                          SSA, § 1862(a)(1)(A).

Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)                          7
                  FINDINGS
                  Medicare, other health insurers, sleep medicine
                  clinicians, and CPAP manufacturers differ widely on
                  replacement frequencies for supplies
                  Seventy-four percent of State Medicaid programs had
                  replacement schedules for CPAP supplies; 39 percent of these
                  schedules permitted replacement less frequently than did
                  Medicare
                  Thirty-seven of 50 State Medicaid programs (74 percent) reported that
                  they had replacement schedules for CPAP supplies in effect as of
                  January 1, 2012. Of the 13 State Medicaid programs that reported having
                  no replacement schedules, 9 programs reported that supplies were replaced
                  on the basis of medical necessity.18 The remaining four programs
                  (Arkansas, Florida, New Jersey, and Rhode Island) reported that the
                  monthly reimbursement for the rental of the CPAP machine included all
                  necessary supplies. Because these four States did not use replacement
                  schedules, we did not further explore the costs associated with
                  continuously renting this equipment.
                  For the 37 State Medicaid programs that had replacement supply
                  schedules, we compared the frequency of replacement for each of the
                  15 types of supplies with that of Medicare.19 For those supplies for which
                  State Medicaid programs specified replacement frequency schedules,
                  39 percent of frequencies were less than those under Medicare, 51 percent
                  equaled those under Medicare, and 10 percent exceeded those under
                  Medicare. Table 3 shows the range of State Medicaid program
                  replacement frequencies and Medicare’s frequencies for all types of
                  supplies reviewed.




                  18
                    State Medicaid programs did not provide a specific definition of “medical necessity.”
                  19
                    Not all of the State Medicaid programs had replacement frequencies for each of the
                  15 types of supplies.

Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)           8
                  Table 3: Comparison of State Medicaid Programs’ and Medicare’s
                  Replacement Schedules for CPAP Supplies

                                                                                Annual Frequency of Replacement
                    HCPCS                                                        Lowest            Highest
                                                         Description               State             State
                    Code                                                                                      Medicare
                                                                               Medicaid          Medicaid
                                                                                                             Frequency
                                                                                Program           Program
                                                                              Frequency         Frequency
                     A4604         CPAP Tubing With Heating Element                         1           24           4

                     A7027        Combination Oral/Nasal CPAP Mask                          1           12           4

                     A7028               Replacement Oral Cushion for                       1           24           24
                                                     Oral/Nasal Mask

                     A7029               Replacement Nasal Pillows for                      1           24           24
                                            Oral/Nasal Mask, One Pair

                                                                                       1 per
                     A7030                               Full Face Mask                                 12            4
                                                                                     5 years

                     A7031                     Full Face Mask Interface                     1           12           12

                     A7032            Cushion for Nasal Mask Interface                      1           24           24

                     A7033                                 Nasal Pillows                    1           24           24

                     A7034                                                             1 per            24            4
                                                         Nasal Interface
                                                                                     5 years

                     A7035                                     Headgear                     1           12            2

                     A7036                                     Chinstrap                    1           12            2

                     A7037                                        Tubing                    1           12            4

                     A7038                              Disposable Filter                   4           72           24

                     A7039                         Nondisposable Filter                     1           12            2

                     A7046                                                             1 per            12            2
                                             Humidifier Water Chamber
                                                                                     3 years
                  Note: We converted reported frequencies to annual frequencies. 

                  Source: OIG analysis of State Medicaid program survey responses, 2012.




                  The replacement frequencies for all 37 State Medicaid programs can be
                  found in Appendix A.
                  Many State Medicaid Programs Have Changed or Have Initiatives
                  Underway To Change CPAP Supply Replacement Schedules. Medicare’s
                  CPAP supply replacement frequency schedule has remained largely the
                  same for the past 20 years; however, many State Medicaid programs have
                  either recently changed their schedules or have initiatives underway to do
                  so. Eight State Medicaid programs made changes to their schedules
                  between 2009 and 2011. For example, in October 2009, the New York
                  Medicaid program changed the allowed replacement frequency for
                  nondisposable filters without prior approval from three filters every
                  2 months to two filters every 6 months.

Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)                9
                  Another 10 State Medicaid programs reported that they had initiatives
                  underway to change the replacement schedules for CPAP supplies. For
                  example, four States were reviewing their policies for CPAP supplies.
                  Another three States will address CPAP supply replacement frequencies in
                  conjunction with the implementation of new Medicaid management
                  information systems.
                  Medicare Expenditures for Masks Could Be Less If the Replacement
                  Schedule Were Changed To Match Selected State Medicaid Program
                  Schedules. We calculated the effects of Medicare expenditures for CPAP
                  masks if Medicare changed its schedule to those of selected State
                  Medicaid programs. Two State Medicaid programs (Minnesota and
                  Virginia) used replacement schedules that allowed one mask replacement
                  per 4 months. Six State Medicaid programs used replacement schedules
                  that allowed one mask replacement per 6 months.20 Appendix B shows the
                  potential reductions in Medicare expenditures if Medicare changed its
                  replacement schedule for masks. We note that, regardless of the number
                  of mask replacements allowed, an important aspect of cost control is to
                  ensure that beneficiaries receive only the quantities sufficient to meet the
                  needs of their clinical conditions.
                  Two FEHB plans followed Medicare’s replacement schedule
                  and two plans had no specific schedules
                  Of the four FEHB plans that we surveyed, two plans reported that they
                  followed Medicare’s replacement schedule for CPAP supplies and the
                  other two plans had not established specific schedules. The two plans that
                  followed Medicare’s schedule further stated that they would consider
                  exceptions for circumstances such as improperly fitted or worn supplies in
                  allowing CPAP supplies in greater quantity or frequency. The other two
                  plans stated that they did not limit the frequency of replacement of
                  supplies; instead, the plans determined coverage on the basis of medical
                  necessity.21
                  Clinicians emphasized the importance of proper mask fit;
                  clinical research suggested that once proper mask fit is
                  established, replacement is less frequent than Medicare allows
                  All five of the sleep disorder medicine clinicians with whom we spoke
                  emphasized that proper mask fit is an important factor in achieving patient
                  adherence with CPAP therapy. During the first year, and particularly


                  20
                     The six State Medicaid programs are Alabama, Georgia, Hawaii, Missouri, North
                  Carolina, and North Dakota. Alabama and Hawaii specified a replacement frequency of
                  two masks per year for only two of the three types of masks (i.e., A7030 and A7034).
                  21
                     FEHB plans did not provide a specific definition of “medical necessity.”

Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)    10
                  within the initial 3-month period of use, patients may need to try several
                  types or brands of masks to find the best fit.
                  One clinician characterized Medicare’s CPAP supply replacement
                  schedule as “generous.” Another clinician recommended that replacing
                  masks once every 4 months (3 per year) was sufficient. Finally, two
                  clinicians commented that the material used in some supplies (e.g., tubing)
                  is becoming more durable, necessitating less frequent replacement.
                  The fifth clinician conducted research on VHA patients receiving positive
                  airway pressure therapy for more than 1 year. This clinician found that
                  supply replacement rates were much greater in adherent patients than in
                  nonadherent patients.22 The median refill rate of all supplies combined
                  (e.g., masks, tubing, filters) for adherent patients was 1.5 items per year.
                  The median replacement rate for masks alone was 0.67 per year for
                  adherent patients—less than 1 mask per year (as compared to Medicare’s
                  allowed frequency of 1 per 3 months). We note that VHA does not have a
                  replacement schedule for CPAP supplies. Instead, replacements are
                  provided upon patient request.
                  Manufacturers recommended specific replacement
                  frequencies for only a few types of supplies
                  Three of the four CPAP machine manufacturers that we surveyed
                  recommended specific replacement frequencies for certain supplies. In
                  those cases, manufacturers’ recommended frequencies were equal to or
                  less frequent than those under Medicare’s schedule. Most commonly,
                  manufacturers had replacement frequency recommendations for filters
                  (i.e., A7038, A7039). However, instead of specific frequency
                  recommendations, each of the manufacturers commented that the
                  frequency of replacement was variable and was based on individual use,
                  method and frequency of cleaning, and the environment in which the
                  CPAP equipment was used. For example, one manufacturer recommended
                  replacing a mask if it “became weakened or cracked.” Another
                  manufacturer that had no specific recommendation for the frequency of
                  replacing filters commented that a filter should be replaced “if it shows
                  signs of dirt or damage.”




                  22
                    Nimesh Patel, D.O.; Afshin Sam, M.D.; Alexandra Valentin, RRT; Stuart F. Quan,
                  M.D; and Sairam Parthasarathy, M.D. “Refill Rates of Accessories for Positive Airway
                  Pressure Therapy as a Surrogate Measure of Long-Term Adherence.” Journal of
                  Clinical Sleep Medicine, Vol. 8, No. 2, 2012, pp. 169-175.

Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)    11
                  CONCLUSION AND RECOMMENDATION
                  Medicare, other health care insurers, sleep medicine clinicians, and CPAP
                  manufacturers differ widely on replacement frequencies for supplies. For
                  supplies for which State Medicaid programs specified replacement
                  frequency schedules, 39 percent of frequencies were less than those under
                  Medicare and 51 percent equaled those under Medicare. Only 10 percent
                  exceeded those of Medicare. Additionally, many State Medicaid programs
                  have either recently changed their schedules or have initiatives underway
                  to do so. Two FEHB plans had no specific replacement schedules; the
                  plans determined coverage on the basis of medical necessity. Sleep
                  medicine clinicians emphasized the importance of proper mask fit, but
                  research suggested that once proper mask fit is established, replacement of
                  masks is less frequent than Medicare allows. Finally, manufacturers
                  recommended specific replacement frequencies for only a few types of
                  supplies, but those recommendations were often to replace those supplies
                  on an as-needed basis and potentially less frequently than Medicare’s
                  replacement schedule.
                  CPAP supplies are included in one product category of CMS’s
                  competitive-bid process, which began for limited categories of DMEPOS
                  in 2011. First year savings for this category totaled over $19 million.
                  However, competitive bidding does not address replacement schedules,
                  and Medicare’s CPAP supply replacement frequency schedule has
                  remained largely the same for the past 20 years.
                  We recommend that CMS:
                  Review the CPAP Supply Replacement Schedule and Revise
                  the National Coverage Determination for CPAP Therapy for
                  OSA or Request That the DME MACs Revise Their LCDs as
                  Appropriate
                  We present evidence from State Medicaid programs and clinicians that
                  supports less frequent replacement than what Medicare allows. We also
                  present suggestions from respondents to replace supplies on an as-needed
                  basis. CMS could consider allowing a more generous schedule for CPAP
                  machine users during the first year of use and a less frequent replacement
                  schedule for established users. If CMS deems revision of the CPAP
                  supply replacement schedule to be warranted, it should revise its NCD to
                  include an appropriate CPAP supply replacement schedule and ensure that
                  the DME MACs make corresponding changes to their LCDs.
                  Alternatively, CMS could request that the DME MACs revise their LCDs.




Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)   12
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS did not concur with our recommendation. CMS stated that
                  additional information specific to CPAP use among adherent beneficiaries
                  as well as that related to Medicare suppliers should be explored before any
                  recommendations are provided. CMS also stated that failure to consider
                  noncompliance or the potential impact of supplier fraud or abuse would
                  bias the estimate of a clinically appropriate refill rate. Although our report
                  does not include this specific information, we continue to believe that our
                  evidence is sufficient to warrant the recommendation that CMS review the
                  supply replacement schedule and make revisions as appropriate. We agree
                  that CMS will likely set more accurate rates if the additional information
                  referenced above is obtained.
                  We did not make any changes to the report based on CMS’s comments.
                  The full text of CMS’s comments is provided in Appendix C.




Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)   13
                        APPENDIX A
                        State Medicaid Program Replacement Schedules for
                        Continuous Positive Airway Pressure Supplies
                                                               Annual Frequency of Replacement
 State
                                   A4604           A7027          A7028           A7029             A7030        A7031           A7032

 Alabama                               N/A            N/A             N/A             N/A                 2             2              2
 California                              2               1             12              24                 1             1             12
 Connecticut                            12              12             24              24                12           12              24
 Delaware                                4            N/A             N/A             N/A                 2             2             24
 District of Columbia                    4               4               4              4                 4             4              4
 Georgia                               N/A               2             12              12                 2             1             12
 Hawaii                                 24            N/A             N/A             N/A                 2             2              2
 Idaho                                   4               4             24              24                 4           12              24
 Illinois                                2               2               2              3                 2             1             12
 Iowa                                    4               4             24              24                 4           12              24
 Kansas                                  1               1               1              1                 1             1              1
 Louisiana                               4            N/A             N/A             N/A                 4           12              24
 Maine                                  12               4             24              24                 4           12              24
 Maryland                                1               4             24              24                12           12              24
 Massachusetts                         N/A               4               6              6                 4           12              24
 Michigan                              N/A               1               1              1                 1             1              1
 Minnesota                               4               3             12              12                 3           12              12
 Mississippi                           N/A            N/A             N/A             N/A                 4             4             12
 Missouri                              N/A               2               2              6                 2             2              2
 Montana                                 4               4             24              24                 4           12              24
 Nebraska                              N/A               4             24             N/A                 4           12              24
 Nevada                                  4               4             24              24                 4           12              24
 New Mexico                              4               4             24              24                 4             4             24
 New York                              N/A               2               2              2    1 per 5 years              2              2
 North Carolina                        N/A               2               2              2                 2             2              2
 North Dakota                           12               2             24              24                 2           12              24
 Ohio                                  N/A            N/A             N/A             N/A                 1          N/A               2
 Oklahoma                              N/A               1               1              1                 1             1              1
 Oregon                                  4               4             24              24                 4           12              24
 Pennsylvania                            4               4             24              24                 2             4             12
 South Carolina                          2               1               1              1                 2             2              2
 Texas                                 N/A               4             12              24                 4           12              24
 Utah                                  N/A            N/A                1              1                 1             1              1
 Vermont                                 4               4             24              12                 4           12              24
 Virginia                               12               3               3              3                 3             3              3
 Washington                              2            N/A             N/A             N/A                 2             4              2
 West Virginia                          12            N/A             N/A             N/A                 2             2             24
Note: We converted reported frequencies to annual frequencies. “N/A” indicates that no replacement frequency was reported for that supply.
State Medicaid programs may make exceptions to these replacement schedules based on medical necessity.
                                                                                                                   continued on next page


 Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)                                    14
                        State Medicaid Program Replacement Schedules for
                        Continuous Positive Airway Pressure Supplies (Continued)
                                                             Annual Frequency of Replacement
 State
                            A7033              A7034        A7035        A7036       A7037       A7038   A7039        A7046

 Alabama                           2                  2           2            2            1       12       2              2
 California                      24                   2           2            2            2       24       2              2
 Connecticut                     24                 12           12           12           12       24      12             12
 Delaware                        24                   4           2            2            4       12     N/A            N/A
 District of Columbia              4                  4           4            4            4        4       4              4
 Georgia                         12                   2           2            2           12       12       2   1 per 3 years
 Hawaii                            4                  2           1            1            2        4       1              2
 Idaho                           24                   4           2            2            4       12       2              2
 Illinois                        12                   4           2            2            2       24       2              3
 Iowa                            24                   4           2            2            4       24       2              2
 Kansas                         N/A                N/A            1            1            1      N/A       1              1
 Louisiana                       24                   4           2            2           12       24       2              2
 Maine                           24                 24            2            2           12       24       2             12
 Maryland                        24                   4           2            2            4       24      12              2
 Massachusetts                   24                   4           2            2            4        6       2              2
 Michigan                          1                  1           1            1            1       18     N/A              2
 Minnesota                       12                   3           3            2           12       36       3              4
 Mississippi                     12                   4           2            2           12       24       2            N/A
 Missouri                          6                  2           2            2            2       24       2            N/A
 Montana                         24                   4           2            2            4       24       2              2
 Nebraska                        24                N/A          N/A         N/A            N/A     N/A     N/A            N/A
 Nevada                          24                   4           2            2            4       24       2              2
 New Mexico                      24                   4           4            2            4       24      12              2
 New York                          2     1 per 5 years            2            2             2       4       4            N/A
 North Carolina                    2                  2           2            1            2       12       6            N/A
 North Dakota                    24                   2           2            2           12       24       2              2
 Ohio                              2                  1           1            2            1       12       4            N/A
 Oklahoma                          1                  1           1            1            1       24       2              2
 Oregon                          24                   4           2            2            4       24       2              2
 Pennsylvania                    12                 12           12           12            4       72      12              2
 South Carolina                    2                  2           2            2            2        5       2              2
 Texas                           24                   4           2         N/A            12       24       2            N/A
 Utah                              1                  1           2            2            2        4       1            N/A
 Vermont                         12                   4           2            2            4       24       2              2
 Virginia                          3                  3           3            3            3       12      12             12
 Washington                        2                  2           2            2            2       12       2              2
 West Virginia                   24                   4           2            2           12       24       2              1
Source: Office of Inspector General analysis of Medicaid program survey responses, 2012.




  Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)                       15
                  APPENDIX B
                  Decreases in Medicare Expenditures for Masks If the
                  Replacement Schedule Were Changed

                  If Medicare reduced the frequency of mask replacement from one per
                  3 months to one per 6 months, expenditures would decrease by
                  $14,212,244, or 14 percent. If Medicare reduced the frequency of mask
                  replacement to one per 4 months, expenditures would decrease by
                  $3,388,465, or 3 percent. The savings calculations assume that all
                  beneficiaries who received masks at the current maximum frequency will
                  decrease to the new maximum frequency and that there is no change for
                  beneficiaries that received fewer masks than the current maximum
                  frequency.

                                         Impact If Replacement Schedule                  Impact If Replacement Schedule
                                         Changed to Two Masks Per Year                  Changed to Three Masks Per Year
                    Mask Type
                                             Number of                                    Number of
                                                                       Decrease in                           Decrease in
                                           Beneficiaries                                Beneficiaries
                                                                   Allowed Dollars                       Allowed Dollars
                                               Affected                                     Affected
                    A7027                                  494              $121,816              140               $27,004

                    A7030                              29,512              $6,544,549            8,831          $1,564,440

                    A7034                              54,892              $7,545,879           16,561          $1,797,021

                      Total                    84,898 (18%)         $14,212,244 (14%)      25,532 (5%)     $3,388,465 (3%)
                  Note: Dollar amounts are rounded to the nearest $1. 

                  Source: Medicare National Claims History File, 2012.





Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)              16
                                APPENDIXC 

                                Agency Comments 

    ,.--........... 

:        ~	DEPAIITMENT OF HEALTH & HUMAN SERVICES                                               Cen1e<ll IOJ Uedicare & Medicaid Services


    '-;:j                                                                                        Admi"istrator
                                                                                                 Washll)lllon, DC 20201




                        DATE:        APR 2 6 2013
                        TO: 	         Daniel R. Levinson 

                                      Inspecto~ General 

                                                         /S/
                        FROM: 	       Marilyn 'iiJVmner 

                                      Acting Adlnlni strator 


                        SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Replacement Schedules for
                                      Medicare Continuous Positive Airway Pressure (CPAP) Supplies" (OEI-07-12­
                                      00250)


                        Thank you for the opportunity to review and comment on the above-subj~X:t draft report . OIG is
                        trying to determine the extent to which the replacement schedule for CPAP supplies under
                        Medicare's fee-for-service system differed from those of other health insurers and the
                        r~X:ommendations of clinicians and CPAP machine manufacturers. OIG found that supplies for
                        which state Medicaid programs specified frequency schedules, 39 percent had replacement
                        frequencies that were less frequent than those under Medicare and 51 percent had replacement
                        frequencies equal to those under Medicare. Only 10 percent of supply replacement frequencies
                        were more frequent than those under Medicare. Additionally, many state Medicaid programs
                        have either recently changed their CPAP supply replacement schedules or have initiatives
                        underway to do so. Two Federal Employees Health Benefits plans had no specific replacement
                         schedule; the plans determined coverage on the basis of medical n~X:essity. Sleep medicine
                         clinicians emphasized the importance of proper mask fit, but once mask fit is established,
                         research indicated less frequent replacement of masks than Medicare allows. Finally, OlG found
                         that manufacturers r~X:ommended specific replacement frequencies for only a few types of
                         supplies, but those recommendations were often to replace those supplies on an as-needed basis
                         and potentially less frequently than under Medicare's replacement schedule.

                         OIG recommendation and CMS response to the recommendation is discussed below.

                         OIG Recommendation

                         The OIG recommends that CMS Review the CPAP Supply Replacement Schedule and Revise
                         the National Coverage Determination for CP AP Therapy for OSA or Request That the DME
                         MACs Revise Tileir LCDs as Appropriate .

                         CMS Response

                         The CMS does not concur with the OIG recommendation. In order to determine if CPAP supply
                         refill frequency can be reduced, an analysis of Medicare beneficiary CPAP use similar to that
                         performed in the Veterans Health Administration study is needed (i.e., comparing actual CPAP




Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)                                           17
                  Agency Comments (Continued)




Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)   18
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Brian T. Whitley, Acting
                  Regional Inspector General for Evaluation and Inspections in the Kansas
                  City regional office.
                  Tricia Fields served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the Kansas City regional office who
                  conducted the study include Jordan Clementi and Brian Pattison. Central
                  office staff who provided support include Clarence Arnold, Scott Manley,
                  and Christine Moritz.




Replacement Schedules for Medicare Continuous Positive Airway Pressure Supplies (OEI-07-12-00250)   19
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
